    Office of Inspector General
    Memorandum Report



ASSISTANCE AGREEMENTS 




    Assistance Agreement X99694001

         Awarded by EPA to the 

  Central States Air Resource Agencies 



   Report No. 2001-0000801-2002-P-00010


              March 29, 2002
Inspector General Division:   Central Audit and Evaluation
                               Resource Center
                              Dallas, Texas Branch Office

Audit Conducted By:           Dan Howard


Region Covered:               Region 6


Program Office Involved:      Multimedia Planning and
                               Permitting Division
                 UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                           OFFICE OF INSPECTOR GENERAL
                             CENTRAL AUDIT DIVISION                   BRANCH OFFICES:
                              901 NORTH 5TH STREET        1445 Ross Avenue, Suite 1200
                            KANSAS CITY, KANSAS 66101         Dallas, Texas 75202-2733
                                   913-551-7878                           214-665-6621
                                FAX: 913-551-7837                  FAX: 214-665-6589

                                     March 29, 2002                       999 18th Street Suite 500
                                                                      Denver, Colorado 80202-2405
                                                                                     303-312-6872
                                                                               FAX: 303-312-6063
SUBJECT:      Final Memorandum Report
              Assistance Agreement X99694001 Awarded by EPA
                to the Central States Air Resource Agencies
              Report Number 2001-0000801-2002-P-00010

FROM:	        Randy P. Holthaus
              Branch Manager
              Dallas Branch Office

TO:           Carl E. Edlund, P.E., Director
              Multimedia Planning and
               Permitting Division (6PD)
              EPA Region 6

Purpose

       During the Office of Inspector General (OIG) nationwide audit of procurement
procedures used by recipients of U.S. Environmental Protection Agency (EPA) assistance
agreements, we identified findings related to assistance agreement X99694001 that we believe
need to be brought to your attention. We are therefore providing you with a report on our
findings concerning this agreement, awarded to the Central States Air Resource Agencies
(CenSARA). CenSARA is a multi-state organization headquartered in Oklahoma City,
Oklahoma.

        This memorandum report contains issues that describe conditions OIG has identified and
corrective actions OIG recommends. This report represents the opinion of OIG. Final
determinations on matters in this report will be made by EPA managers in accordance with
established EPA audit resolution procedures. We have no objections to the release of the report
to the public.
                                                    Assistance Agreement X99694001 Awarded by EPA
                                                    to the Central States Air Resource Agencies


Action Required

        In accordance with EPA Order 2750, you, as the action official should provide this office
with a written response within 90 days of the final report date. For corrective actions planned
but not completed by the response date, reference to specific milestone dates will assist us in
deciding whether to close this report.

        If you or your staff have any questions regarding this report, please contact Dan Howard
at (214) 665-3160, or me at (214) 665-6620.


Objectives

       The objectives of our audit were to determine whether:

       S       Assistance agreement recipient procurement practices were in accordance with
               the procurement requirements in Title 40 Code of Federal Regulations (CFR) Part
               30, Office of Management and Budget (OMB) Circular A-122, “Cost Principles
               for Non-Profit Organizations,” and any additional regulations governing the
               specific assistance agreements reviewed.

       S       EPA personnel involvement in the award and management of contracts under the
               assistance agreement complied with 5 CFR Part 2635 “Standards of Ethical
               Conduct for Employees of the Executive Branch,” and the EPA Project Officer’s
               Manual, Appendix C.


Scope and Methodology

        EPA awarded approximately $2 million in assistance agreement funds, for the project
period beginning May 5, 1998, and ending September 30, 2001, to CenSARA, for the purpose of
exchanging information between the states and other interested parties related to the control of
air pollution. Activities funded under this assistance agreement included training courses and
research projects, such as air modeling. The assistance agreement with CenSARA was 1 of 70
agreements that OIG selected to review as part of its nationwide audit. This report only
represents our findings regarding the CenSARA assistance agreement. OIG plans to issue a
comprehensive report on the OIG nationwide audit.




                                                2              Report No. 2001-0000801-2002-P-00010
                                                    Assistance Agreement X99694001 Awarded by EPA
                                                    to the Central States Air Resource Agencies

        We performed this audit in accordance with the Government Auditing Standards issued
by the Comptroller General of the United States, as they apply to program audits. We reviewed
Federal procurement standards provided in Title 40 of the CFR, Part 30. We reviewed files of
EPA and the recipient, and held discussions with EPA and recipient representatives. We
conducted our work from March to September 2001. This review does not represent a financial
audit of CenSARA.


Results

        We found violations of Federal procurement regulations and an apparent conflict of
interest. The recipient awarded six contracts under the assistance agreement totaling $369,451.
These six contracts included contracts with five contractors. We found that the recipient had not
performed cost or price analyses for any of these six contracts. We also found that a Region 6
employee’s involvement in the recipient hiring of a contractor was not appropriate. Further, we
identified an instance of an apparent conflict of interest.

No Cost or Price Analyses

        The recipient did not perform cost or price analyses for any of the six contracts awarded
under the assistance agreement, as required by 40 CFR § 30.45. Further, all six contracts were
awarded sole source. Therefore, there is no assurance that contract work performed with
assistance agreement funds was conducted at a fair and reasonable price. A CenSARA
representative stated that CenSARA did not perform such analyses because he assumed that
member state agencies had already performed them. However, neither the recipient nor its
members provided documentation to demonstrate any analyses were performed.

Inappropriate Region 6 Involvement in Recipient Hiring of a Contractor

       We found that a Region 6 employee wrote the sole source justification, along with the
scope of work for one contract, for CenSARA. In this sole source justification, the Region 6
employee listed the objectives for the contract and concluded that the contract should be a sole
source contract with a specific contractor. Region 6 sent Regional Geographic Initiative funding
to CenSARA to pay for the $60,000 contract. Further, Region 6 is listed on the contract as the
contracting agency, rather than one of the recipient’s member states. According to the Region 6
employee, Region 6 wanted specific work performed, and due to timing and familiarity with the
contractor, decided to award the contract through the recipient rather than award the contract
using Region 6's procurement process.




                                                3              Report No. 2001-0000801-2002-P-00010
                                                     Assistance Agreement X99694001 Awarded by EPA
                                                     to the Central States Air Resource Agencies

        While EPA employees should review and comment on the recipient’s procurement
activities, the recipient should be generating the information that EPA reviews. Region 6
employees should not be generating sole source justifications for the recipient. Appendix C of
the Project Officers’ Manual, EPA Involvement in Grantee Personnel and Contractor Selection
Under Grants and Cooperative Agreements, dated September 24, 1992, provides that:

       • EPA employees may not:

               S       Direct a recipient to award a contract to a specific individual or firm.
               S       Participate in the negotiation or award of a contract under a grant or
                       cooperative agreement.

       • EPA employees may:

               S       Approve the key personnel of the grantee organization and the project
                       director or principal investigator.
               S       Review and comment on a grantee's procurement process or a particular
                        procurement action.
               S       Participate in review panels to make recommendations on qualified offers
                       and acceptable proposals based on published evaluation criteria.
               S	      Upon request by a recipient organization, provide a reference for
                       individuals who are employed by EPA contractors and who are being
                       considered for employment by the recipient institution to work on EPA
                       matters. In doing so, EPA employees should take great care to avoid even
                       the appearance of undue influence in hiring decisions, especially EPA
                       officials who have a role in selecting the assistance recipient or in defining
                       the scope and amount of the assistance received.

       In summary, it is inappropriate for EPA staff to direct or require the use of particular
persons or firms by assistance recipients in the performance of an assistance agreement.

Apparent Conflict of Interest

        The Region 6 Deputy Ethics Official did not review an Intergovernmental Personnel Act
assignment for apparent conflicts of interest issues prior to the issuance of the Intergovernmental
Personnel Act assignment. This Intergovernmental Personnel Act assignment was for the
recipient’s Senior Advisor. This individual was an EPA employee serving on a 2-year
Intergovernmental Personnel Act assignment to the recipient. Prior to working on the
assignment, the Advisor was the Region 6 acting division director, and while in this capacity
also served as the award official for this assistance agreement.



                                                 4              Report No. 2001-0000801-2002-P-00010
                                                    Assistance Agreement X99694001 Awarded by EPA
                                                    to the Central States Air Resource Agencies

        We discussed this with the Region 6 Deputy Ethics Official from the Office of Regional
Counsel. He informed us that he was not aware of the Intergovernmental Personnel Act
assignment, and was concerned that he was not consulted about it. The Deputy Ethics Official
also said that this assignment should have been given extra consideration, since the former
division director signed the assistance agreement as the award official prior to starting the
assignment. Further, the Deputy Ethics Official stated that even though the Intergovernmental
Personnel Act position is that of an advisor and may not involve making decisions for the
recipient, he still had concerns about this situation.

        As a result of our review, the Deputy Ethics Official issued a memorandum dated
August 6, 2001, to the Region 6 Assistant Regional Administrator. In this memo, the Deputy
Ethics Official stated that he reviewed the Intergovernmental Personnel Act assignment and
determined that there were no ethical issues involved. However, the Deputy Ethics Official
stated he would brief the former acting division director on the need to recuse himself should an
issue arise in any matter in which he was involved at EPA.

        The Deputy Ethics Official also noted in his memo that, even though the former acting
division director was the signatory on the EPA grant, this took place a year-and-a-half prior to
serving on the Intergovernmental Personnel Act assignment, and that the former acting division
director had “no inkling he would go to CenSARA when he signed the grant.” Although this
may have been true, we found that the former acting division director was still signing
amendments to the assistance agreement up to two-and-a-half months prior to starting his
Intergovernmental Personnel Act assignment.

        Region 6 renewed the former acting division director’s Intergovernmental Personnel Act
position in October 2001.

Recommendations

       We recommend that the Regional Administrator:

               1.	    Instruct the project officer to ensure the recipient performs cost or price
                      analyses for every procurement action in accordance with 40 CFR § 30.45.

               2.	    Inform Regional employees about the prohibitions against directing
                      recipients to award contracts.

               3.	    Inform all Region 6 divisions that they are to submit all Intergovernmental
                      Personnel Act assignments to the Deputy Ethics Official for review. Also,



                                                5              Report No. 2001-0000801-2002-P-00010
                                                    Assistance Agreement X99694001 Awarded by EPA
                                                    to the Central States Air Resource Agencies

                      instruct the Deputy Ethics Official to review all future Region 6
                      Intergovernmental Personnel Act assignments before they are approved.

              4.	     Instruct the Deputy Ethics Official to investigate the apparent conflicts of
                      interest noted in this report, including re-examining the former acting
                      division director’s Intergovernmental Personnel Act assignment for
                      possible ethics violations or conflicts of interest.


Region 6 Response and OIG Evaluation

        Region 6's responses adequately address Recommendations 1, 3, and 4. (For Region 6's
complete response, see attachment.) The actions taken and actions planned for these
recommendations are sufficient and no further actions are needed. However, Region 6 did not
provide an adequate response to Recommendation 2 because it did not provide sufficient details
as to how the Region would ensure that staff would not be involved in directed contracting in the
future. 	Specifically:

       S	     Regarding Recommendation 1, Region 6 agreed with our recommendation and
              stated that the project officer reminded the grantee on November 9, 2001, of the
              regulatory requirement to perform cost/price analyses, and has informed the
              grantee that Region 6 will be requesting copies of such cost/price analyses for
              every future contract. Region 6's response adequately addresses
              Recommendation 1.

       S	     Regarding Recommendation 2, Region 6 responded that the contract was clearly
              not for EPA’s direct benefit and Region 6 did not direct CenSARA to hire a
              specific contractor. Region 6 further responded that staff is aware of the
              prohibition against directed contracting, and they will continue to ensure that
              implementation of this policy is closely monitored. However, Region 6's
              response did not identify the process they have in place, if any, to monitor
              implementation of the policy. We continue to believe that Region 6's
              involvement in the hiring of this contractor was inappropriate. Appendix C of the
              Project Officers’ Manual, EPA Involvement in Grantee Personnel and Contractor
              Selection Under Grants and Cooperative Agreements, dated September 24, 1992,
              provides that it is inappropriate for Agency staff to direct or require the use of
              particular persons or firms by assistance recipients in the performance of an
              assistance agreement. The sole source justification, written by a Region 6
              employee, identified who the recipient should contract with, as well as the scope
              of the contract.


                                                6              Report No. 2001-0000801-2002-P-00010
                                                   Assistance Agreement X99694001 Awarded by EPA
                                                   to the Central States Air Resource Agencies

       S	     Regarding Recommendations 3 and 4, Region 6 responded that the
              Intergovernmental Personnel Act staff advisor at CenSARA (a former Region 6
              acting division director) has very carefully maintained an impartial attitude in any
              dealings with CenSARA on EPA matters, and with EPA on CenSARA matters.
              While he had routinely signed earlier grant award/amendment documents, he had
              not sought funding for an Intergovernmental Personnel Act position; he was later
              offered the Intergovernmental Personnel Act opportunity on short notice; and his
              salary is not paid by grant funds (only travel expenses, etc.). Although the acting
              division director in the months prior to his appointment may have signed
              amendments to the CenSARA grant, his Intergovernmental Personnel Act
              assignment developed months later. He had no direct involvement in CenSARA
              grant matters after his selection for the Intergovernmental Personnel Act
              assignment. Region 6 also responded that a new policy has already been
              instituted by the Office of Regional Counsel on November 20, 2001, to ensure
              that all future Intergovernmental Personnel Act assignments are submitted to the
              Deputy Ethics Official for review. In fact, the Intergovernmental Personnel Act
              assignee has met with the Deputy Ethics Official as part of the Intergovernmental
              Personnel Act “renewal” to extend this assignment. Region 6's response
              adequately addresses Recommendations 3 and 4.

       Based on comments received to the draft report we removed information related to
consultant fees for consideration at a later time.

Attachment




                                               7              Report No. 2001-0000801-2002-P-00010
    Assistance Agreement X99694001 Awarded by EPA
    to the Central States Air Resource Agencies


                                   Attachment




8              Report No. 2001-0000801-2002-P-00010
    Assistance Agreement X99694001 Awarded by EPA
    to the Central States Air Resource Agencies




9              Report No. 2001-0000801-2002-P-00010
 Assistance Agreement X99694001 Awarded by EPA
 to the Central States Air Resource Agencies




10          Report No. 2001-0000801-2002-P-00010
 Assistance Agreement X99694001 Awarded by EPA
 to the Central States Air Resource Agencies




11          Report No. 2001-0000801-2002-P-00010
 Assistance Agreement X99694001 Awarded by EPA
 to the Central States Air Resource Agencies




12          Report No. 2001-0000801-2002-P-00010
 Assistance Agreement X99694001 Awarded by EPA
 to the Central States Air Resource Agencies




13          Report No. 2001-0000801-2002-P-00010
 Assistance Agreement X99694001 Awarded by EPA
 to the Central States Air Resource Agencies




14          Report No. 2001-0000801-2002-P-00010
 Assistance Agreement X99694001 Awarded by EPA
 to the Central States Air Resource Agencies




15          Report No. 2001-0000801-2002-P-00010
                                                Assistance Agreement X99694001 Awarded by EPA
                                                to the Central States Air Resource Agencies




                                       Distribution




Office of Inspector General

      Inspector General
      Assistant Inspector General for Human Capital
      Assistant Inspector General for Planning, Analysis and Results
      Assistant Inspector General for Audit
      Media and Congressional Liaison
      Goal Lead
      Writer/editor

Headquarters Office

      Agency Followup Official (the CFO)(2710A)
      Agency Audit Followup Coordinator (2724A)
      Director, Office of Regional Operations (1108A)
      Grants Administration Division (3903R)


Regional Office

      Regional Administrator

      Deputy Regional Administrator

      Audit Followup Coordinator





                                             16             Report No. 2001-0000801-2002-P-00010
